-
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

    TO: AIGI           File Number: I96060037                                       Date: 15 March 2002

    Subject: Closeout Memo                                                                   Page 1 of 1
                                                           -

         There was no closeout written at the time this case was closed. The following information was
         extracted from the file in conformance with standard closeout documents.

         Our office was informed that the subject' was alleged to have committed embezzlement, theft, or
         diversion of grant funds. OIG found that the subject submitted two overlapping travel
         reimbursement forms, one to an organization2and one to the ~niversity.~        The subject received
         reimbursements from both places. OIG also found an overlap in reimbursements for rental car
         expenses, which were charged both to NSF (via the subject's university) and another university.4
         These appeared to be isolated incidents. No pattern of fraudulent activity or mischarging was found.

         Accordingly this case is closed.
                                               *    ,
               3   -   -


                             -   4'




          I
                           Prepared by:                        Cleared by:

                       Agent:             Attorney:        Supervisor:       AIGI
       Name:



     Signature &
        date:
